No: U5CA U

Z.D-\0f-0f
IN THE

SUPREME COURT OF THE UNITED STATES

STEVE L. STANALAND, JR.,
Petitioner
v.
U.S. SOLICITOR GENERAL, et al.
Respondents).

PROOF OF SERVICE

I, Steve L. Stanaland, Jr., do swear or declare that on this date, December 17th, 2020, as required
by Supreme Court Rule 29 I have served the ENCLOSED MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS to the above proceeding on An Extension of time and this MOTION TO
APPOINTMENT OF COUNSEL, by depositing an envelope containing the above documents in the
United States mail properly addressed to them and with first class postage prepaid, or by delivery to a
third party commercial carrier for delivery within 3 calendar days. The names and addresses of those
served are as follows: Solicitor General of the U.S., Rm. 5614, Dept, of Justice/Office of U.S. Attorney
General, 950 Pennsylvania Ave. N.W., 20530-0001; Washington, D.C.; Supreme Court Justice, Judge
Amy Coney Barrett, Clerk of the Court, Supreme Court of the U.S.; 1 First St. N.E., Washington, D.C.
20543-0001.
I declare under penalty of peijury that the foregoing is true and correct, Executed on April /fc, 2021.

Steve L .Stanaland, Jr.
D.C. #593240

14

*

